               Department of Veterans Affairs
               Office of Inspector General



                    Office of Healthcare Inspections

Report No. 13-03747-76



              Healthcare Inspection 


 Environment of Care Deficiencies in 

        the Operating Room 

 VA Connecticut Healthcare System 

      West Haven, Connecticut 





February 18, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
Environment of Care Deficiencies in the Operating Room, VA Connecticut Healthcare System, West Haven, CT



                                 Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections conducted an
inspection in response to allegations about deficiencies in the environment of care in the
operating room (OR) at the VA Connecticut Healthcare System (facility), West Haven,
CT. It was alleged that:

	 Terminal cleaning procedures in the OR are not performed appropriately.
	 Environmental Management Services (EMS) has insufficient staff resources
   assigned to the OR.
	 EMS staff do not utilize standard operating procedures (SOPs) or checklists for
   cleaning that are consistent with recognized industry standards.
	 Patients with infectious diseases who may require special precautions are scheduled
   for surgical procedures throughout the day along with patients who are not
   infectious.
	 OR staff are not always made aware of an infectious patient’s precaution status prior
   to the arrival of the patient.

We substantiated all five allegations. We found that cleanliness of the OR could not be
assured due to inadequate staff resources, incomplete and inconsistent SOPs, poor
supervision and training of EMS staff, and lack of oversight. We also found that
safeguards were inadequate for ensuring patient and employee safety when infectious
patients requiring special precautions were scheduled for OR procedures concurrently
with noninfectious patients. In addition to the original allegations, during the course of
our review we identified issues related to maintenance of the Heating, Ventilation, and
Air Conditioning (HVAC) system and insect control in the OR. Although our findings
substantiated an increased risk to patients and staff, we found no conclusive evidence
that the environment of care deficiencies in the OR resulted in negative patient
outcomes.

We recommended that the Facility Director strengthen SOPs for OR cleaning and
develop and implement policies and procedures to address management of infectious
patients, HVAC preventive maintenance, and insect control in the OR. We also
recommended that the Facility Director reassess EMS staffing needs in the OR, assign
personnel requisite to the workload, and ensure that EMS staff and supervisors receive
training on OR environment of care requirements. Additionally, we recommended that
the Facility Director implement procedures to monitor the OR environment of care and
to address identified deficiencies.




VA Office of Inspector General                                                                         i
Environment of Care Deficiencies in the Operating Room, VA Connecticut Healthcare System, West Haven, CT



Comments
The Veterans Integrated Service Network and Facility Directors concurred with our
recommendations and provided an acceptable action plan. (See Appendixes A and B,
pages 9-13 for the Directors’ comments.) We will follow up on the planned actions until
they are completed.




                                                              JOHN D. DAIGH, JR., M.D.
                                                             Assistant Inspector General for
                                                               Healthcare Inspections




VA Office of Inspector General                                                                         ii
Environment of Care Deficiencies in the Operating Room, VA Connecticut Healthcare System, West Haven, CT



                                                 Purpose 

The VA Office of Inspector General Office of Healthcare Inspections conducted an
inspection in response to allegations about deficiencies in the environment of care in the
operating room (OR) at the VA Connecticut Healthcare System (facility), West Haven,
CT. The purpose of the inspection was to determine the merits of the allegations.

                                             Background 

Facility Profile. The facility consists of two campuses, one located in West Haven and
the other in Newington. The West Haven campus is a 230-bed tertiary care facility with
patient care services that include internal medicine, surgery, psychiatry, physical
medicine and rehabilitation, neurology, oncology, dentistry, and geriatrics and extended
care. Newington is an ambulatory care center that provides primary and specialty care.

The peri-operative area of the facility includes the OR suite1 comprising 7 operating
rooms with adjacent sterilizer and storage rooms, a pre-operative holding area, and the
post-anesthesia care unit (PACU).2          During the first 3 quarters of FY 2013,
2,120 surgical procedures were performed at the facility.

General housekeeping services within the OR are the responsibility of the facility’s
Environmental Management Service (EMS). The Chief of EMS reports to the Chief of
Facilities Management Service (FMS) and is responsible for managing EMS supervisors
who are assigned to various areas of the facility, including the OR. The typical EMS
staff assignment for the OR is four EMS staff on the day shift and three on the evening
shift.

Allegations. Prior to an OIG scheduled Combined Assessment Program (CAP) review3
of the facility in June 2013, the OIG invited facility staff to participate in an online
Employee Assessment Review (EAR) survey. The EAR is an anonymous survey that
offers all staff the opportunity to express their opinions about safety and the quality of
care provided at the facility. The results from the facility included a number of reports of
unsatisfactory conditions related to environmental management and infection control in
the OR at the West Haven campus. Specifically, the survey results included the
following allegations:

	 Terminal cleaning of the OR after the day’s procedures is not performed
   appropriately.4
	 EMS has insufficient staff resources assigned to the OR.


1
  The OR suite is commonly referred to as the OR, which is the term we use in this report. 

2
  The PACU is a part of the peri-operative suite where surgical patients are monitored during recovery from

anesthesia. 

3
  The CAP review process is the periodic inspection of VA health care facilities by the OIG to evaluate selected

facility operations, focusing on patient care quality and the environment of care. 

4
  Terminal cleaning is a process to deep clean and disinfect the entire OR procedure room and adjacent scrub/utility 

areas after the day’s procedures. It includes wet vacuuming the entire floor and cleaning all horizontal surfaces, 

furnishings, and equipment, whether portable, fixed, or wall-mounted.



VA Office of Inspector General                                                                                      1
Environment of Care Deficiencies in the Operating Room, VA Connecticut Healthcare System, West Haven, CT



	 EMS staff do not utilize standard operating procedures (SOPs) or checklists for
   cleaning that are consistent with recognized industry standards.
	 Patients with infectious diseases who may require special precautions5,6 are
   scheduled for surgical procedures throughout the day along with patients who are
   not infectious.
	 OR staff are not always made aware of an infectious patient’s precaution status prior
   to the arrival of the patient.

                                Scope and Methodology 

During the June 2013 CAP review, we conducted a preliminary review of the
allegations, which included an unannounced visit to the OR. We returned to the facility
August 12–14, 2013, to conduct an in-depth review specific to the allegations. We
interviewed FMS and EMS chiefs, supervisors, and staff; OR physicians and nursing
personnel; and other clinical, supervisory, and administrative staff. We also interviewed
the Chief of Surgery and Chief of Anesthesiology, the OR Nurse Manager, and the
facility epidemiologist. We reviewed relevant facility policies and procedures, training
documentation, engineering reports, minutes of the OR Management Committee and
Infection Control Committee, incident reports, and VA Surgical Quality Improvement
Program reports and clinical outcomes data. We also reviewed applicable industry
standards including The Joint Commission (JC) and Association of Perioperative
Registered Nurses (AORN). We inspected the OR, the pre-operative holding area, and
the PACU.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




5
  In this report, we are interpreting special precautions to denote transmission-based precautions which include three
categories reflecting the major modes of microorganism transmission in hospital settings: contact, droplet, and
airborne spread. Precautions may include isolating the patient from contact with others and the use of personal
protective equipment and are required for patients known or suspected to be infected, or colonized, with select
infectious microorganisms.
6
  Siegel JD, Rhinehart E, Jackson M, Chiarello L, the Healthcare Infection Control Practices Advisory Committee,
2007 Guideline for Isolation Precautions: Preventing Transmission of Infectious Agents in Healthcare Settings.
http://www.cdc.gov/hicpac/2007IP/2007isolationPrecautions.html. Accessed on December 20, 2013.


VA Office of Inspector General                                                                                       2
Environment of Care Deficiencies in the Operating Room, VA Connecticut Healthcare System, West Haven, CT



                                   Inspection Results 

We substantiated all five allegations. We found that cleanliness of the OR could not be
assured due to inadequate staff resources, incomplete and inconsistent SOPs, poor
supervision and training of EMS staff, and lack of oversight. We also found that
safeguards were inadequate for ensuring patient and employee safety when infectious
patients requiring special isolation precautions were scheduled for OR procedures
concurrently with noninfectious patients. During the course of our review, we identified
other issues, not identified in the EAR survey, related to maintenance of the Heating,
Ventilation, and Air Conditioning (HVAC) system and the intrusion of insects in the OR.

Issue 1: OR Environment of Care

We substantiated that terminal cleaning of the OR is not performed appropriately and
that a shortage of trained EMS staff assigned to the OR and an incomplete SOP and
checklist inconsistent with recognized industry standards were contributing factors.

Guidelines for environmental cleaning in the OR have been developed by AORN and
are widely recognized as the industry standard.7,8 The facility’s OR infection control
policy, which references AORN, requires that EMS staff receive “special training on
room cleaning between cases” to include cleaning floors, furniture, and light fixtures.9
The policy also requires EMS staff to perform terminal cleaning of the OR at the end of
the day using hospital-approved detergents and disinfectants. In addition, an EMS SOP
outlines requirements for properly cleaning the OR and lists general equipment and
supplies to be used and procedures to be followed.10 The SOP includes a terminal
cleaning checklist that must be completed and signed by EMS staff and verified by EMS
supervisors. The facility’s OR Management Committee is responsible for monitoring
patient safety and cleanliness in the OR.11

During our inspection, OR and PACU staff reported that when they arrived for the first
cases of the day, they often found indications that rooms had not been terminally
cleaned the previous evening. For example, they would find debris and dust on the
floor under furniture and equipment, indicating that the furniture and equipment had not
been moved to accommodate terminal cleaning. Smaller equipment items, such as
oxygen tanks and electrical cords or tubing, would be on the floor from the final


7
  Conner R, et.al., Ed., Perioperative Standards and Recommended Practices, Association of periOperative 

Registered Nurses, Vol. 1, 2013. Accessed on September 5, 2013.

8
  AORN recommended standards are evidence-based, authored by AORN nursing specialists, and developed in

collaboration with liaisons from the American College of Surgeons, Association for Professionals in Infection

Control and Epidemiology, the Centers for Disease Control and Prevention, and other nationally recognized 

organizations. 

9
  VA Connecticut Healthcare System, Infection Control Department Policy, Operating Room, June 2013 (and prior 

version dated March 2007).

10
   VA Connecticut Healthcare System, EMS SOP 35, Operating Room Cleaning, March 20, 2012. 

11
   VA Connecticut Healthcare System Policy 00-166, Operating Room (OR) Management Committee, June 28, 

2007. 



VA Office of Inspector General                                                                              3
Environment of Care Deficiencies in the Operating Room, VA Connecticut Healthcare System, West Haven, CT



procedure of the previous day. Also, trash was not emptied, and restrooms were not
clean.

Several OR and infection control staff expressed opinions that the facility lacked
procedures to differentiate terminal cleaning from between-case cleaning.12
Furthermore, OR Management Committee minutes repeatedly addressed concerns that
terminal cleaning is “not being done” and a need to either “get caught up” or contract
with an outside vendor and cited the need to “establish a schedule for terminal
cleaning.” The minutes also reported incidents of EMS staff eating in the pre-operative
holding room in violation of facility policy.13

Based on our interviews with facility staff and managers, observations onsite, and
review of pertinent documents, we identified five factors—including two factors identified
in the original allegations—contributing to cleanliness issues in the OR.

Shortage of Staff. Terminal cleaning for most ORs is performed during the evening
shift. The FMS and EMS chiefs acknowledged that an evening shift EMS position has
been vacant since January 2013. As a result, only two, instead of the usual three, EMS
staff are assigned to this shift. The FMS and EMS chiefs reported that EMS staffing
problems are facility-wide, making it difficult to backfill in the OR. Furthermore, because
of special training requirements for EMS staff in the OR, reassigning staff from other
areas in the facility is difficult. At the time of our inspection, EMS had an authorized
staffing level of 125 and 38 position vacancies. Furthermore, facility managers
determined that on an average workday, 19 percent of the EMS staff did not report to
work.

The FMS and EMS chiefs expressed concern that human resources has not been
responsive in filling vacancies for EMS positions. The Human Resources Manager
confirmed that delays within his department were a contributing factor and that they
recently had been resolved.

Incomplete SOPs Inconsistent with Industry Standards. Although the facility has an
established SOP and checklist for cleaning in the OR, we found that these documents
lack sufficient detail and do not reflect key elements of industry standards. For
example, the SOP does not distinguish between terminal cleaning and in-between-case
cleaning, and the checklist is only for terminal cleaning. The SOP also does not
establish that terminal cleaning must take place every 24 hours during the work week,
to include rooms that were not used. It does not include a schedule or process for
cleaning of storerooms, hallways, patient waiting areas, or other ancillary areas.
Furthermore, the SOP does not address procedures for cleaning an OR that has been
used for an infectious patient. For waste handling and soiled linen, the SOP refers to

12
   Between-case cleaning is performed during room turnover between patients to address equipment used during the 

case plus the furnishings and floor immediately surrounding the focus area or patient area. It is less intensive than

the terminal cleaning performed at the end of the day following completion of the surgical schedule.

13
   VA Connecticut Healthcare System, Infection Control Department Policy, Facilities Management Service, 

August 2010; VA Connecticut Healthcare System, Infection Control Department Policy, Operating Room, 

June 2013. 



VA Office of Inspector General                                                                                      4
Environment of Care Deficiencies in the Operating Room, VA Connecticut Healthcare System, West Haven, CT



two other SOPs and an unnamed policy. Furthermore, the SOP (as well as the facility’s
OR infection control policy) is missing other key provisions of the AORN guidelines,
such as specific training requirements for EMS staff working in the OR and a formal
quality management program to evaluate processes and outcomes of the environmental
cleaning and disinfection in the OR.

Inadequate Supervision.     We identified several concerns regarding EMS staff
supervision. During an unannounced evening inspection of the OR, we saw no EMS
staff for almost an hour, when two staff members should have been present. EMS
supervisors we spoke to could not explain the absence of employees during this time.
We found that terminal cleaning checklists completed by EMS staff were not verified
and signed by EMS supervisors. In addition, several OR nurses we interviewed stated
that they rarely saw EMS supervisors in the OR.

The FMS and EMS chiefs acknowledged supervision problems and stated that they
were “not surprised” that OR nursing staff reported that they rarely saw EMS
supervisors in the OR. The Human Resources Manager cited the frequent turnover of
the Chief of EMS position as a reason for inadequate supervision.

Inadequate Training. During our interviews with EMS supervisors, we found that some
were unclear regarding the frequency of OR cleaning procedures and could not provide
specifics as to how they trained and evaluated their subordinates. One EMS supervisor
assigned to the OR indicated that he was not formally trained for the assignment, and
he sought his training from subordinates and OR nursing staff. The Chief of EMS
confirmed that another supervisor had been transferred from a position in a different
building and that the supervisor had not yet received formal training to oversee specialty
areas such as the OR. The Chief of EMS also cited difficulty in tasking supervisors with
some training responsibilities since they involved skills not listed in the supervisors’ job
descriptions.

We reviewed EMS training records and found that many lacked dates of training, length
of training, and/or details regarding training content. Some training records, specific to
OR cleaning, listed as a facilitator a supervisor who was not formally trained in OR
cleaning.

No Evidence of Oversight. Although the facility’s OR Management Committee is
responsible for monitoring cleanliness and safety in the OR, and committee minutes
consistently noted environment of care deficiencies, we found no documentation that
definitive actions had been taken to address problems over a 10-month period (since
October 2012).

Issue 2: Safeguards for Scheduling Patients Requiring Isolation Precautions

We substantiated that infectious patients who may require special precautions are
scheduled for surgical procedures concurrently with noninfectious patients and that staff
were not always made aware of a patient’s precaution status prior to the arrival of the
patient.



VA Office of Inspector General                                                                        5
Environment of Care Deficiencies in the Operating Room, VA Connecticut Healthcare System, West Haven, CT



The practice of concurrent scheduling of infectious patients who may require special
precautions with noninfectious patients is not prohibited by Veterans Health
Administration or facility policy as long as adequate safeguards are in place to reduce
the risk of exposure. Previous facility policy specified that staff receiving a patient
requiring transmission-based precautions have advance notification of that patient’s
status and type of precautions required.14 To improve management of patients
requiring precautions in the peri-operative setting, facility managers updated this policy
subsequent to our CAP site visit in June 2013.15 Another policy revision addressing
patients requiring precautions in the PACU was still in draft form at the time of our return
visit in August 2013.16

Scheduling of Patients Requiring Isolation Precautions. The OR Nurse Manager,
the Chief of Surgery, and the Assistant Chief of Surgery all confirmed that both
infectious patients who may require precautions and noninfectious patients are
concurrently scheduled for surgical procedures throughout the day. OR leadership
indicated that patients with droplet, wound, or respiratory infections do not go to the pre-
operative holding area or the PACU. The patients go from their ward directly into OR
procedure rooms and back to their rooms on the wards following procedures. If more
intensive post-operative recovery is warranted, patients go to isolation rooms in the
surgical intensive care unit. Patients requiring respiratory precautions are scheduled at
the end of the day.

OR and infection control staff also described actions taken to reduce the risk of disease
transmission by patients on standard contact precautions. In the pre-operative holding
area and PACU, these patients are placed in an end stretcher next to a wall and are
separated from the next patient by an empty stretcher bay. A supply cart with personal
protective equipment is placed in front of the curtains enclosing the stretcher bay with
signage indicating that contact precautions are required.         Terminal cleaning is
performed after the patient leaves and, to enhance this process, disposable paper
curtains surrounding the stretcher bay are discarded. At the time of the CAP site visit
the disposable curtains were unusable because of missing hardware to hang the
curtains; however, this situation has been resolved.

Notification for Patients Requiring Isolation Precautions. Staff indicated they were
often unaware of a patient’s precaution status prior to the patient’s arrival in the OR, and
on occasion they were not made aware of the patient’s status until after the procedure
was completed and the patient was in the PACU. The delay was attributed to the fact
that a majority of surgeries are outpatient, and pre-assessments to determine the need
for precautions are not done until the day of surgery. According to facility leaders, they
have changed the process so that a patient’s precaution status is evaluated during the
anesthesia pre-screening appointment 2 weeks before surgery. On the day of surgery,
any laboratory procedures still required to determine the patient’s precaution status are
prioritized, and results are immediately telephoned to the OR.

14
   VA Connecticut Healthcare System, Infection Control Department Policy, Operating Room, March 2007.
15
   VA Connecticut Healthcare System, Infection Control Department Policy, Operating Room, June 2013.
16
   VA Connecticut Healthcare System, Infection Control Department Policy, PACU, DRAFT, July 2013.


VA Office of Inspector General                                                                          6
Environment of Care Deficiencies in the Operating Room, VA Connecticut Healthcare System, West Haven, CT



All staff interviewed acknowledged that improvements in communicating precaution
status were made in the interval between the CAP and hotline site visits. The
information “handoff” system was enhanced, and the written communication
accompanying patients now includes placement of a precaution notice that is visible
when the patient is transported. Signage indicating the need for precautions is also
posted in each area of the peri-operative suite as the patient location changes.

Issue 3. Other Environment of Care Concerns

In addition to the allegations in the EAR survey, our inspection revealed other
environment of care issues that have a potential impact on patient safety and quality of
care.

AORN recommends that patients should have a clean and safe environment and
stipulates that “ventilation ducts should be cleaned and filters changed on a regularly
scheduled basis.”17 Although AORN does not reference a specific timeframe, it does
recommend an established schedule. Further, AORN recommends that “measures
should be taken to prevent vermin infestation of the perioperative environment.”18

HVAC Maintenance. The Chief of Surgery expressed serious concerns regarding
maintenance of the facility’s HVAC system and how it might impact patient safety in the
OR. These concerns are also reflected in the minutes of the OR Management
Committee, which document ongoing issues or questions regarding cleaning of the
HVAC ducts, loss of positive pressure in some ORs, and excessively high humidity.
Facility maintenance reports show a number of deficiencies that were discovered and
corrected by an HVAC contractor. “Substantial errors” were noted in calibration of
pressure monitors; monitor alarms had been permanently muted; and pressure lines
were found reversed, causing two ORs to be operating at negative instead of positive
pressure.

Despite these concerns, we found that the facility lacks a formal, comprehensive policy
that addresses preventive maintenance and cleaning of the HVAC system in the OR.
Engineering officials provided us with samples of a form listing preventive maintenance
“check points.” The form includes check-off boxes that provide the user with choices
that range from weekly to yearly but no guidance as to what specific maintenance is
required and how often it is required. Engineering officials also provided us with a
computer-generated report that lists dates and times of HVAC inspections, which
appear to be performed on a quarterly basis. However, none of the documentation
provided details on issues that were discovered or how they were tracked or resolved.

Insect Control. OR staff we interviewed indicated that flying and crawling insects have
been an ongoing problem in the OR for about 8 years. Occasional insect intrusion was
also documented in incident reports we reviewed and was confirmed by the chiefs of

17
   Conner R, et.al., Ed., Perioperative Standards and Recommended Practices, Association of periOperative 

Registered Nurses, Vol. 1, 2013. Accessed on September 5, 2013.

18
   Conner R, et.al., Ed., Perioperative Standards and Recommended Practices, Association of periOperative 

Registered Nurses, Vol. 1, 2013. Accessed on September 5, 2013.



VA Office of Inspector General                                                                                7
Environment of Care Deficiencies in the Operating Room, VA Connecticut Healthcare System, West Haven, CT



surgery, anesthesia, and FMS. OR staff stated that the problem occurs most often in
rooms with outside walls and that it seems to be a seasonal problem. Some nurses
reported that they believe food is being consumed by EMS staff in the OR at night,
which attracts insects. The facility does not have a policy addressing prevention or
management of insect problems.

                                       Conclusions 

We found that cleanliness of the OR could not be assured due to inadequate staff
resources, incomplete and inconsistent SOPs, poor supervision and training of EMS
staff, and lack of oversight.

We initially found that safeguards were inadequate for ensuring patient and employee
safety when infectious patients who may require isolation precautions were scheduled
for OR procedures concurrently with noninfectious patients. However, by the time of
our hotline site visit, the facility had made improvements and was in the final process of
updating policies and procedures. During the course of our review, we also identified
weaknesses in the environment of care process related to the HVAC system
maintenance and insect control to the OR.

Although our findings substantiated an increased risk to patients and staff, our review of
Infection Control Committee minutes and quality assurance reports found no conclusive
evidence that the environment of care deficiencies in the OR resulted in negative patient
outcomes.

                                  Recommendations 

1. We recommended that the Facility Director strengthen policies and procedures
related to the operating room environment of care to be consistent with recognized
industry standards.

2. We recommended that the Facility Director develop and implement policies and
procedures to address management of infectious patients in the operating room;
Heating, Ventilation, and Air Conditioning system preventive maintenance; and insect
control in the operating room.

3. We recommended that the Facility Director reassess Environmental Management
Services staffing needs in the operating room and assign personnel requisite to the
workload on each shift.

4. We recommended that the Facility Director ensure that Environmental Management
Services staff and supervisors receive training on operating room environment of care
requirements, especially terminal cleaning.

5. We recommended that the Facility Director implement procedures to monitor the
operating room environment of care and to address identified deficiencies.



VA Office of Inspector General                                                                        8
Environment of Care Deficiencies in the Operating Room, VA Connecticut Healthcare System, West Haven, CT
                                                                                           Appendix A
                            VISN Director Comments


               Department of
               Veterans Affairs                                 Memorandum

     Date:     January 21, 2014

     From:     Director, VA New England Healthcare System (10N1)

   Subject:	   Healthcare Inspection—Environment of Care Deficiencies in
               the Operating Room, VA Connecticut Healthcare System, West
               Haven, CT

        To:    Director, Bedford Office of Healthcare Inspections (54BN)

               I have reviewed and concur with the action plans regarding the
               Draft Report – Environment of Care Deficiencies in the Operating
               Room, VA Connecticut HCS.

               Sincerely,



               (original signed by:)

               Michael Mayo-Smith, MD, MPH
               Network Director




VA Office of Inspector General                                                                        9
Environment of Care Deficiencies in the Operating Room, VA Connecticut Healthcare System, West Haven, CT
                                                                                           Appendix B
                         Facility Director Comments


               Department of
               Veterans Affairs                                 Memorandum

     Date:     January 16, 2014

     From:     Director, VA Connecticut Healthcare System (689/00)

   Subject:	   Healthcare Inspection—Environment of Care Deficiencies in
               the Operating Room, VA Connecticut Healthcare System, West
               Haven, CT

        To:    Director, VA New England Healthcare System (10N1)

               I have reviewed and concur with the action plans regarding the
               Healthcare Inspection – Environment of Care Deficiencies in the
               Operating Room, VA Connecticut Healthcare System, West Haven,
               CT.

               Sincerely,



               (original signed by:)

               Gerald Culliton 

               Facility Director





VA Office of Inspector General                                                                       10
Environment of Care Deficiencies in the Operating Room, VA Connecticut Healthcare System, West Haven, CT



                         Comments to OIG’s Report
The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the Facility Director strengthen policies
and procedures related to the operating room environment of care to be consistent with
recognized industry standards.

Concur

Target date for completion: 02/28/2014

Facility response: VA Connecticut addressed the recommendation with key
stakeholders including the Associate Director, Chief of FMS, EMS Supervisor, Infection
Control, and the Operating Room Leadership. Revisions were begun to policies and
procedures related to the operating room environment of care immediately following the
site visit. Operating room checklists were developed by Infection Control and EMS
Leadership to help standardize EMS cleaning, and towards educating staff on the
differentiation of terminal and between-case cleaning. The checklist was also optimized
to reinforce the daily responsibilities for terminal cleaning. A consultative site visit is
scheduled for the week of January 20th, 2014 during which the Acting EMS Chief and
Nurse Epidemiologist from the VA Boston Healthcare System will evaluate EMS
operations, staffing, and policies related to the Operating Room. Further revisions to
policies and procedures will be completed based on the recommendations of the site
visitors and will be implemented by 02/28/2014.             Daily monitoring of the OR
Environment of care using a standardized checklist has been implemented at the
beginning of each scheduled OR day and is reported daily to the Director’s Office for
monitoring and further action as needed. Results of this monitoring including the
tracking of open issues to closure will occur weekly with the Executive Team and will be
reported monthly to the OR Management and Environment of Care Committees.

Recommendation 2. We recommended that the Facility Director develop and
implement policies and procedures to address management of infectious patients in the
operating room; Heating, Ventilation, and Air Conditioning system preventive
maintenance; and insect control in the operating room.

Concur

Target date for completion: 03/15/2014

Facility response: VA Connecticut addressed the recommendation with key
stakeholders including the Associate Director, Chief of FMS, EMS Supervisor, Infection
Control, and the Operating Room Leadership. During the site visit, VA Connecticut
revised the SOP for management of infectious patients in the operating room. If



VA Office of Inspector General                                                                       11
Environment of Care Deficiencies in the Operating Room, VA Connecticut Healthcare System, West Haven, CT



feasible, effort will be made to schedule patients on contact or other isolation status at
the end of the elective schedule. Specific precaution signage for use through the peri-
operative period have been implemented and are specific to the type of precautions
required for an individual patient. A visual marker has been added to the front of the
procedure name in the surgical scheduling package to facilitate communication of the
need for precautions. MRSA nasal swabs are now obtained during pre-anesthesia
clinic visits to enhance early detection of resistant S. aureus, allowing for advance
notification of OR/PACU staff and sooner placement in appropriate precautions.
Compliance with the policy will be monitored by the OR Nurse Manager. A policy and
procedure for Heating, Ventilation, and Air Conditioning system preventative
maintenance specific for the Operating Room is being developed and will be finalized
after the site visit (noted above) is complete with implementation no later than
02/28/2014. Daily monitoring of the HVAC system will occur via a daily checklist
process described under recommendation 1. Monitoring will occur via reporting to the
OR Management and EOC Committee quarterly. A policy and procedure for insect
control specific for the Operating Room is being developed and will be finalized after the
site visit (noted above) is complete with implementation no later than 03/15/2014.

Recommendation 3.           We recommended that the Facility Director reassess
Environmental Management Services staffing needs in the operating room and assign
personnel requisite to the workload on each shift.

Concur

Target date for completion: 02/28/2014

Facility response: VA Connecticut addressed the recommendation with key
stakeholders including the Associate Director, Chief of FMS, and the EMS Supervisor.
Current staffing levels were evaluated and adjusted to include an additional FTE on
both the day and evening shifts. All of these positions are currently filled. In addition,
four additional EMS supervisors have been hired. Staffing levels will be evaluated
during the site visit (noted above) and adjusted further as needed with implementation
no later than 02/28/2014. Monitoring of staffing levels for OR EMS Staffing will occur
via daily review by the EMS Chief. Monitoring will be reported weekly to the Associate
Director.

Recommendation 4.       We recommended that the Facility Director ensure that
Environmental Management Services staff and supervisors receive training on
operating room environment of care requirements, especially terminal cleaning.

Concur

Target date for completion: 03/15/2014

Facility response: VA Connecticut addressed the recommendation with key
stakeholders including the Associate Director, Chief of FMS, EMS Supervisor, Infection
Control, and the Operating Room Leadership. Reeducation regarding operating room
environment of care requirements including terminal cleaning was provided to EMS staff


VA Office of Inspector General                                                                       12
Environment of Care Deficiencies in the Operating Room, VA Connecticut Healthcare System, West Haven, CT



working in the OR as well as supervisors and will be completed after the final policies
and procedures referred to under recommendation #1 are completed. VA Connecticut
has created a full time FTE for an RN Educator based in the Hospital Education Service
to be the dedicated EMS educator and will oversee the training and competency
evaluation of all EMS staff. This position is in the final stages of recruitment. Monitoring
will occur on a quarterly basis to ensure that all EMS staff working in the OR or
supervising those working in the OR are current on their training and competency
requirements.

Recommendation 5.         We recommended that the Facility Director implement
procedures to monitor the operating room environment of care and to address identified
deficiencies.

Concur

Target date for completion: 01/15/2014

Facility response: Daily monitoring of the OR Environment of care using a standardized
checklist has been implemented at the beginning of each scheduled OR day and is
reported daily to the Director’s Office for monitoring and further action as needed.
Results of this monitoring including the tracking of open issues to closure will occur
weekly with the Executive Team and reported monthly to the OR Management and
Environment of Care Committee. Monitoring will occur via the review of the standing
agenda item inclusion and minutes beginning with the February meetings of both OR
Management and EOC Committees.




VA Office of Inspector General                                                                       13
Environment of Care Deficiencies in the Operating Room, VA Connecticut Healthcare System, West Haven, CT
                                                                                           Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Frank Keslof, EMT, MHA, Team Leader
                         Annette Acosta, RN, MN
                         Thomas Jamieson, MD
                         Matt Frazier, MPH, MBA




VA Office of Inspector General                                                                       14
Environment of Care Deficiencies in the Operating Room, VA Connecticut Healthcare System, West Haven, CT
                                                                                           Appendix D


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA New England Healthcare System (10N1)
Director, VA Connecticut Healthcare System (689/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
Senate Committee on Homeland Security and Governmental Affairs
Related Agencies
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Richard Blumenthal, Christopher Murphy
U.S. House of Representatives: Rosa L. DeLauro, John B. Larson




This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                       15
